APPENDIX A

*

p

' .
•

Case 3:17-cr-30047-NJR ,JQocument 175 Filed 01/04/19 Pa'”"'6 of 33 Page ID #1322

AO 245B (SDIL Rev. 04/16) Judgment in a Criminal Case

United States District Court
Southern District of Illinois
UNITED STATES OF AMERICA

)
)
)

JUDGMENT IN A CRIMINAL CASE

v.

)
)

Case Number: 17-CR-30047-NJR-01
USM Number: 13634-025

)
)
)

CHRISTOPHER P. THRELKELD

ALFRED L. CROSS

Defendant’s Attorney

THE DEFENDANT:
pleaded guilty to count(s) 1-5 of the Superseding Indictment.
□

pleaded nolo contendere to count(s)
which was accepted by the court.

□

was found guilty on count(s)
after a plea of not guilty.

The defendant is adjudicated guilty of these offenses.
Title & Section
18U.S.C. §1344(1)

Nature of Offense
Bank Fraud

Offense Ended
03/25/2015
06/24/2013
10/24/2013
05/15/2014
05/16/2014

Count
1

2
3
4
5

The defendant is sentenced as provided in pages 2 through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
No fine.

g
’
jf ordered to pay restitution, the defendant shall notify the court and United States
this judgment are fully paid,
attorney of any material change in the defendant’s economic circumstances.
Date of Imposition of Judgment: December 10, 2018
Restitution and/or fees may be paid to:
Clerk, U.S. District Court*
750 Missouri Ave.
East St. Louis, IL 62201
’•‘Checks payable to: Clerk, U.S. District Court

Signature of Judge
NANCY J. ROSENSTENGEL-U.S. DISTRICT JUDGE
Name and Title of Judge
Date Signed: December 10, 2018[

EXHIBIT

Pi

Case 3:17-cr-30047-NJRH?ocument 175 Filed 01/04/19 Pc^ 6 of 33 Page ID #1323

‘

AO 245B (SDIL Rev. 04/16) Judgment in a Criminal Case

Judgment Page 2 of 6

DEFENDANT: ALFRED L. CROSS
CASE NUMBER: 17-CR-30047-NJR-01
IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be

statutory provisions.
12

The court makes the following recommendations to the Bureau of Prisons: Due to his medical
needs, the Court recommends placement at MCFP Springfield, Missouri.

_
□

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
□ a.m. □ p.m. on
□ at
□ as notified by the United States Marshal.

□

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
□before 2 p.m. on
□ as notified by the United States Marshal.
□ as notified by the Probation or Pretrial Services Office.
RETURN

I have executed this judgment as follows:
Defendant delivered on
at

to
with a certified copy of this judgment

UNITED STATES MARSHAL
By ______________ ___________ —
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-30047-NJR-9ocument 175 Filed 01/04/19 Pc' N7of33 Page ID #1324
AO 24SB (SDILRev. 04/16) Judgment in a Criminal Case

Judgment Page 3 of 6

DEFENDANT: ALFRED L. CROSS
CASE NUMBER: 17-CR-30047-NJR-01
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 5 years.
Other than exceptions noted on the record at sentencing, the Court adopts the presentence report m its
current form, including the suggested terms and conditions of supervised release and the explanations and
justifications therefor.
MANDATORY CONDITIONS
The following conditions are authorized pursuant to 18 U.S.C. § 3583(d):
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance.
The defendant shall refrain from any unlawful use of a controlled substance. The mandatory drug testing
condition is suspended, as the Court determined at sentencing that the defendant poses a low risk of future
substance abuse.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
ADMINISTRATIVE conditions
applicable whenever
supervised
The following conditions of supervised release are administrative and...
,
.
release is imposedregardless of the substantive conditions that may also be imposed. These conditions
are basic requirements essential to supervised release.
The defendant must report to the probation office in the district to which the defendant is released within
seventy-two hours of release from the custody of the Bureau of Prisons.
The defendant shall not knowingly possess a firearm, ammunition, or destructive device. The defendant
shall not knowingly possess a dangerous weapon unless approved by the Court.
The defendant shall not knowingly leave the judicial district without the permission of the Court or the
probation officer.
The defendant shall report to the probation officer in a reasonable manner and frequency directed by the
Court or probation officer.
The defendant shall respond to all inquiries of the probation officer and follow all reasonable instructions
of the probation officer.
The defendant shall notify the probation officer prior to an expected change, or within seventy-two hours
after an unexpected change, in residence or employment.
The defendant shall not knowingly meet, communicate, or otherwise interact with a person whom the

Case 3:17-cr-30047-NJR—Jpocument 175 Filed 01/04/19 Pf
'

v 8 of 33 Page ID #1325

AO 245B(SD1L Rev. 04/16) Judgment in a Criminal Case

Judgment Page 4 of 6

DEFENDANT: ALFRED L. CROSS
CASE NUMBER: 17-CR-30047-NJR-01
defendant knows to be engaged, or planning to be engaged, in criminal activity.
The defendant shall permit a probation officer to visit the defendant at a reasonable time at home or at any
other reasonable location and shall permit confiscation of any contraband observed m plain view of the
probation officer.
defendant shall notify the probation officer within seventy-two hours of being arrested or questioned
The
by a law enforcement officer.
SIPF.fT AT i CONDITIONS

and 18 U.S C § 3603 to aid persons on probation/supervised release. Although the probation officer
administers the special conditions, final authority over all conditions rests with the Court.
While any financial penalties are outstanding, the defendant shall not open additional checking, savings or
money market accounts, or acquire any stocks, bonds, or other financial account instruments without the
approval of the Court or probation officei.

defendant is advised that the probation office may share financial information with the Financial Litigatio
Unit.

or unexpected financial gains to any outstanding court-ordered financial obligation. The defendant shall notify
the probation officer within 72 hours of the receipt of any indicated monies.
The defendant shall pay any financial penalties imposed which are due and payable immediately.
. , If, the
defendant is unable to pay them immediately, any amount remaining unpaid when
edu e of
commences will become a condition of supervised release and be paid in accordance with the Schedule of
Payments sheet of the judgment based on the defendant’s ability to pay.
U.S. Probation Office Use Only
A U S Probation Officer has read and explained the conditions ordered by the Court and has provided me with a complete
Further information regarding the conditions imposed by the Court can be obtained from the probation
copy of this Judgment,
officer upon request.
Upon a finding of a violation of a condition(s) of probation or supervised release I understand that the court may (1) revoke
supervision, (2) extend the term of supervision, and/or (3) modify the conditions of supervision.
Defendant’s Signature

U.S. Probation Officer

Date

Date

Case 3:17-cr-30047-NJR^4?ocument 175 Filed 01/04/19 Pc "^-9 of 33 Page ID #1326
AO 245B (SDIL Rev. 04/16) Judgment in a Criminal Case

Judgment Page 5 of 6

DEFENDANT: ALFRED L. CROSS
CASE NUMBER: 17-CR-30047-NJR-01
rRTMINAI. MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on
Sheet 6.
TOTALS

□
□

Assessment

■IVTA Assessment*

$500.00

N/A

Fine
WAIVED

Restitution
$111,698.98

The determination of restitution is deferred until__ . An Amended Judgment in a Criminal Case
(AO 245C) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.

If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuantto 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is pajd.^
Name of Payee

Total Loss**

Restitution Ordered

Washington Savings Bank
200 S. Banker St., P.O. Box 707
Effingham, IL 62401

$3,508.56

State Bank of Whittington
200 N. Main Street
Benton, IL 62812

$108.190.42

□
□

Percentage

$111,698.98

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution
or fine is paid in full before the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §
3612(f). All of the payment options on Sheet 6 may be subject to penalties for delinquency and
default, pursuantto 18 U.S.C. § 3612(g).
.
The court determined that the defendant does not have the ability to pay interest and it is oidered
that:
E3 the interest requirement is waived for □ fine IE! restitution.
CH the interest requirement for CD fine CD restitution is modified as follows.

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
* Findings for the total amount of losses are required under Chapters 109 A, 110,110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

Case 3:17-cr-30047-NJR Document 175 Filed 01/04/19 Pa^"'10 of33 Page ID #1327
AO 245B (SDIL Rev. 04/16) Judgment in a Criminal Case

Judgment Page 6 of 6

DEFENDANT: ALFRED L. CROSS
CASE NUMBER: 17-CR-30047-NJR-01

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total eriminal monetary penalties is due as
follows:
due immediately, balance due
A. □ Lump sum payment of $.
□ not later than
or
□ in accordance DC, D D, D E, or D F below, or
B Payment to begin immediately (may be combined with □ C, □ D, or B F below; or
B.
C. □ Payment in equal ______(e.g., weekly, monthly, quarterly) installments of $---------- _ over a
period of_____ (e.g, months or years), to commence________(e.g., 30 or 60 days) after the date
of this judgment; or
D. □ Payment in equal _______(e.g, weekly, monthly, quarterly) installments of $-------------- _ over a
(e.g, months or years), to commence _________ _ (e.g, 30 or 60 days) after
period of
release from imprisonment to a term of supervision; or
(e.g., 30 or 60
E □ Payment during the term of supervised release will commence within
days) after release from imprisonment. The court will set the payment plan based on an assessment
of the defendant’s ability to pay at that time; or
F M Special instructions regarding the payment of criminal monetary penalties: All criminal monetary
ability to pay, payment
release.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of
criminal monetary penalties is due during imprisonment. All criminal monetary penalties, except those
payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary
penalties imposed.
^

Defendant'and Co-Defendant Names and Case Numbers (including defendant number), Total
Amount, Joint and Several Amount, and corresponding payee, if appropriate.

□

The defendant shall pay the cost of prosecution.

□
□

The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine
principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

«
V

APPENDIX B

V*

Case: 18-3633

Filed: 05/22/20^0

Document: 34

Pages: 15

3lrt the

Mmitb Jitate (Eimri of
3fcr \ht

Circuit

No, 18-3633
United States of America,
Plaintiff-Appellee,
v.
Alfred L. Cross,
Defendant-Appellant.

Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:17-cr-30047-NJR-l - Nancy J. Rosenstengel, Chief Judge.

Argued September 25,2019 - Decided May 22,2020

Before RIPPLE, ROVNER, and BRENNAN, Circuit Judges.
ROVNER, Circuit Judge. Alfred L. Cross pled guilty to five
counts of bank fraud, in violation of 18 U.S.C. § 1344(1). Shortly
before sentencing, he moved pro se to terminate his counsel,
withdraw his guilty plea, and dismiss the case. The district
court denied all three motions. He now appeals the court s
denial of his motion to withdraw his plea, and we affirm.

exhibit

Case: 18-3633

Filed: 05/22/20/0

Document: 34

Pages: 15

No. 18-3633

2
I.

Between April of 2011 and March of 2015, Cross unlawfully
obtained approximately $516,000 from several southern Illinois
banks through a simple scheme. Cross opened bank accounts
at out-of-state banks in the names of companies that he claimed
to own. He also opened checking accounts at seven banks in
southern Illinois, again in the names of companies he purportedly owned. Over the course of four years, he wrote large
checks on the out-of-state accounts and deposited them in his
accounts at the Illinois banks, knowing that there were insuffi­
cient funds in the out-of-state accounts to cover those checks.
In each of the charged instances, he then withdrew from the
Illinois banks all, or substantially all, of the money that he had
purportedly deposited, taking the funds in the form of cash­
ier's checks, cash withdrawals, checks and debit card purchases
before any of the banks could discover that the large checks
that he had deposited were not backed by sufficient funds in
the out-of-state accounts.
Based on this conduct, he was charged with five counts of
bank fraud in violation of 18 U.S.C. § 1344(1). Each count of the
indictment alleged that Cross carried out his scheme to defraud
the banks by depositing large checks written on the out-of-state
accou nts into banks in Illinois, knowing those checks were not
cover ed by sufficient funds, and then withdrawing the funds
before the banks could discover that the deposited checks were
not sufficiently funded. For example, Count I charged.
On or about April 14, 2011, within the Southern
District of Illinois, ALFRED L. CROSS, defendant
herein, knowingly executed and attempted to

Case: 18-3633

Document: 34

Filed: 05/22/20^0

Pages: 15

No. 18-3633

3

execute his scheme to defraud by making a deposit
into the "A1 L. Cross - Consolidated Billing Ac­
count" at Washington Savings Bank using a check in
the amount of $18,875, drawn on an account entitled
"Alfred L. Cross - Cross/Hart/Page - Special Ac­
count" at County Bank in Fresno California, which
check defendant knew to be NSF; In violation of
Title 18, United States Code, Section 1344(1).
R. 36, at 3.1 The other four counts varied only in the dates of the
deposits, the amounts of the checks, the titles on the accounts,
and the names of the banks involved in the scheme.
The court appointed counsel to represent Cross in March of
2017, shortly after he was charged. But Cross had difficulty
with each of the three lawyers that the court ultimately
appointed. After approximately eight months, the court
allowed the first attorney to withdraw, and appointed a second
on November 30, 2017. On March 16,2018, while represented
by the second attorney, Cross entered his guilty plea, Two
months later, his relationship with the second lawyer deterio­
rated and the court allowed that attorney to withdraw as well,
appointing a third counsel on May 24, 2018. Less than a week
later, Cross filed a pro se motion to withdraw his guilty plea,
which the court promptly struck, advising Cross that the court
would entertain only those motions that had been filed by
counsel. Despite that warning, on December 6,2018, a few days
before his scheduled sentencing hearing, Cross filed three pro

1 "NSF" is an acronym used in the banking industry. It stands for "nonsufficient funds.."

y
Case: 18-3633

Document: 34

4

Filed: 05/22/2u20

Pages: 15

No. 18-3633

se motions styled, "An [sic] Motion To Withdraw Guilty Plea,
"Motion To Terminate Counsel," and "Motion To Dismiss Case
Per A, Mauro, Violation."2
Rather than striking these motions outright, the court
decided to take them up at the sentencing hearing that was
scheduled for just a few days later. The Court's order advised
counsel for both sides and the defendant himself to be pre­
pared to discuss the motions. At the hearing the court gave the
defendant, his counsel and the government opportunities to
address the motions.3 The court denied the Motion to Termi­
nate Counsel on the merits and denied the Motion to Dismiss
because Cross had filed it pro se during a time that he was
represented by counsel. The court denied the Motion to
Withdraw Guilty Plea both on the merits and because Cross
had filed it pro se while represented by counsel. The court
resolved Cross's numerous objections to the PSR, considered
the parties' respective arguments as to sentencing, heard
Cross's allocution, and analyzed the statutory sentencing
factors. The court then sentenced Cross to seventy-eight
months' imprisonment and five years of supervised release.
Cross appeals.

2 "Mauro" is apparently a reference to United States v. Mauro, 436 U.S. 340
(1978), which is cited in the motion as the basis for dismissal.
3 In his brief, Cross complains that the district court did not allow him to
argue his motions and cut him off when he attempted to speak. That is not
an accurate characterization of the hearing. Although the district judge
limited Cross's remarks, she did allow him to address his three motions.
That he failed to make productive use of the opportunity was his own
misstep, and the court was not obligated to allow him unlimited time.

Case: 18-3633

Filed: 05/22/20^0

Document: 34

Pages: 15

5

No. 18-3633
II.

On appeal, Cross asserts that the district court erred when
it denied his Motion to Withdraw Guilty Plea. We review the
district court's denial of a motion to withdraw a guilty plea for
abuse of discretion, and we review any related factual findings
for clear error. United States v. Haslam, 833 F.3d 840, 844 (7th
Cir. 2016). When a defendant moves to withdraw a plea after
the court has accepted the plea but before sentencing, the
defendant may withdraw the plea if he or she can show a fair
and just reason for requesting the withdrawal." Fed. R. Crim.
P. 11(d)(2)(B). See also Haslam, 840 F.3d at 844. "A guilty plea
operates as a waiver of important rights, and is valid only if
done voluntarily, knowingly, and intelligently, 'with sufficient
awareness of the relevant circumstances and likely consequences.'" Bradshaw v. Stumpf, 545 U.S. 175,183 (2005) (quoting
Brady v. United States, 397 U.S. 742, 748 (1970)). A plea may be
found invalid under this standard where a defendant pleads
guilty to a crime without having been informed of the crime's
elements. Bradshaw, 545 U.S. at 183; Henderson v. Morgan, 426
U.S. 637, 645-47 (1976).
Cross asserts here that he was not properly informed of all
of the elements of bank fraud. He argues that, in order to hold
him liable for bank fraud under section 1344(1), the govern­
ment was required to prove that the scheme to defraud
involved a material falsehood or omission, citing Neder v.
United States, 527 U.S. 1 (1999). But there was no mention of a
material falsehood or omission at his plea hearing, he asserts,
and the government instead proved nothing more than the
passing of bad checks, which he argues is not a federal offense.

Case: 18-3633

Filed: 05/22/20^0

Document: 34

Pages: 15

No. 18-3633

6

Because he was not informed of all of the elements of the crime
to which he pled guilty and because the government presented
no evidence of the element of a material falsehood or omission,
he contends that his plea was not knowing and voluntary. He
urges us to conclude that the district court therefore abused its
discretion in denying his motion to withdraw his plea. He asks
that we vacate the judgment and remand for further proceed­
ings.
A.
As Cross himself concedes in his brief, [tjhere is a wrinkle
in this case." Brief at 21. Aware that the court denied the
Motion to Withdraw Guilty Plea both on the merits and, in the
alternative, because it was filed pro se, Cross also advances an
argument that the district court abused its discretion when it
denied his Motion to Terminate Counsel. Specifically, he
contends that he expressed in his Motion to Terminate Counsel
an unequivocal request to proceed pro se. But the court instead
misconstrued that motion as one to substitute counsel, he
contends, and then failed to conduct the colloquy necessary to
determine whether he could proceed pro se. Summarily
denying his request to proceed pro se was an abuse of discre­
tion, he asserts. He suggests that the district court therefore
also abused its discretion when it denied his motion to with­
draw his guilty plea on the alternate ground that it was filed
pro se. He then appears to ask that this court address his appeal
of the denial of his motion to withdraw his guilty plea solely

Case: 18-3633

No. 18-3633

Document: 34

Filed: 05/22/20^0

Pages: 15

7

on the merits, and disregard the district court's alternate
rationale.4
Although it is unclear whether Cross seeks appellate relief
from the denial of his Motion to Terminate Counsel, it is clear
that he means to use the district court's purported error on that
issue to narrow our review of the denial of the Motion to
Withdraw Guilty Plea, his primary issue on appeal. Before
considering the arguments relating to the Motion to Withdraw
Guilty Plea, we think it best to clear away the underbrush of
this secondary argument regarding the Motion to Terminate
Counsel.
We begin with Cross's claim that the court erred when it
misconstrued his Motion to Terminate Counsel as a motion to
substitute counsel rather than as a request to proceed pro se. "In
order to proceed pro se, a defendant must 'clearly and unequiv­
ocally' raise the right to self-representation." United States v.
Mancillas, 880 F.3d 297, 301 (7th Cir. 2018) (quoting Farett a v.
California, 422 U.S. 806,835 (1975)). We require an unequivocal
invocation of the right to proceed pro se in order "to prevent a
defendant from using an ambiguous waiver of the right to
counsel as a tool to overturn his or her conviction." Mancillas,

4 We hedge our description of Cross's argument both because it is difficult
to untangle the logic in this part of his opening brief and because he
em phasizes in his reply brief that "he does not argue that the prosecutor's
mischaracterization of his motion to terminate counsel entitles him to
relief." Reply Brief at 1. Yet the argument in the opening brief seems to
suggest that he is at least seeking relief for that alleged error by the court
below by urging this court to disregard the district court's alternate
rationale for denying his motion to withdraw his guilty plea.

Case: 18-3633

Document: 34

Filed: 05/22/2u^0

Pages: 15

No. 18-3633

8

880 F.3d at 301. See also United States v. Campbell, 659 F.3d 607,
612 (7th Cir. 2011), vacated on other grounds, sub. nom.
Campbell v. United States, 568 U.S. 802 (2012) (describing the
rationales for requiring that the demand to proceed pro se be
unequivocal).
Cross's purported request to proceed pro se does not meet
this standard. Cross relies heavily on the title of his motion,
noting that it seeks to "terminate" counsel, and on a letter from
his counsel that he attached to the motion.5 But nowhere in the
Motion to Terminate Counsel did Cross express a desire to
represent himself should the court grant his request to termi­
nate his third appointed lawyer. Instead, Cross asserted in the
Motion that counsel was ineffective because he was insuffi­
ciently aware of the facts and law related to the charges against
Cross. Cross also complained that counsel inherited the
errors of the two lawyers who came before him, refused to file
a motion to withdraw the guilty plea, and failed to correct
claimed errors in the presentence report. R. 153. On the day of
the hearing, when the court inquired whether Cross wished to
"persist in the motions that [he] filed" the prior week, he
responded affirmatively and then spoke for two pages of
transcript without ever indicating that he wished to represent
himself. In fact, at no point during the hearing did Cross
5 The attached letter from Cross's third attorney explained the reasons that
counsel would not comply with Cross's demand that he file a motion to
withdraw the guilty plea. Counsel ends the letter by clearly stating that he
will not file the motion, and advising Cross that, if he wants to file the
motion, "you will need to ask the Court to let you represent yourself." The
quoted portion of the letter is underlined by hand, presumably by Cross
himself. R. 123, at 5.

Case: 18-3633

No. 18-3633

Document: 34

Filed: 05/22/20^0

Pages: 15

9

mention that he wished to represent himself. Rather, he simply
expressed dissatisfaction with his current and former attor­
neys. A defendant seeking to "terminate" counsel could be
requesting to substitute new counsel, be seeking to proceed pro
se entirely, or be requesting to present a particular motion pro
se even though represented by counsel. See United States v.
Patterson, 576 F.3d 431,436 (7th Cir. 2009) (noting that whether
a defendant may act as co-counsel along with his own attorney
is a matter within the discretion of the district court).
Without any statement that Cross wished to represent
himself, much less an unequivocal request to do so, the court
reason ably interpreted Cross’s motion as one to substitute
counsel, which it appropriately denied after rejecting Cross s
complaints about his third lawyer. In response to Cross's prior
difficulties with his lawyers, the court had twice appointed
new counsel, and it was reasonable to construe this ambiguous
motion as asking for similar relief. In determining whether a
court abuses its discretion in denying a motion to substitute
counsel, a court considers, among other things, the timeliness
of the motion, the adequacy of the court's inquiry into the
defendant's motion, and whether the conflict was so great that
it resulted in a total lack of communication preventing an
adequate defense. United States v. Best, 426 F.3d 937, 947 (7th
Cir. 2005). Here, the court found that counsel had competently
represented Cross, and that counsel had appropriately filed
objections to the PSR that the court would take up at the
appropriate time. The court also noted that Cross appeared to
be trying to simply delay the proceedings. Importantly, the
court also found that there was no breakdown of communica­
tion between Cross and his lawyer that might justify substitu-

Case: 18-3633

Filed: 05/22/2oz0

Document: 34

Pages: 15

No. 18-3633

10

tion of counsel. Finding no abuse of discretion in the court s
denial of the Motion to Terminate Counsel, we turn to the
primary issue on appeal unencumberedby this side issue.
B.
The district court provided two reasons for denying the
Motion to Withdraw Guilty Plea. First, it denied the motion on
the merits, finding that Cross had knowingly and voluntarily
pled guilty. Second, the court rejected the motion because it
was filed pro se even though the defendant was represented by
counsel. As we noted above, we review the merits of a denial
of the Motion to Withdraw the Guilty Plea for abuse of
discretion. Haslam, 833 F.3d at 844. We also review for abuse of
discretion a district court's denial of a motion filed pro se by a
defendant who is represented by counsel. Patterson, 576 F.3d at
436.
1.
A defendant does not have a right to represent himself
when he is also represented by counsel. Patterson, 576 F.3d at
436. A court thus has "wide discretion to reject pro se submis­
sions by defendants represented by counsel," and there was no
abuse of discretion in the court's decision to reject Cross's
motion on that basis here. A careful reading of the transcript
reveals that the court had concluded that Cross was filing this
motion for the purpose of delaying the proceedings, noting
that he had filed his latest round of pro se motions just two
business days before his sentencing hearing, after proceedings
that had already been in progress for twenty-one months. The
court also remarked that Cross had been represented by highly
competent lawyers including two lawyers whom the court

Case: 18-3633

Filed: 05/22/20*0

Document: 34

Pages: 15

11

No. 18-3633

characterized as among the best panel attorneys available in
the district. That included the attorney who represented him at
the time of sentencing, who had also refused to file a motion to
withdraw the guilty plea, explaining in a letter that Cross
attached to his Motion to Terminate Counsel the reasons for
that refusal. The court was well within its discretion in denying
the motion because it had been filed pro se when Cross was
represented by highly competent counsel who had refused to
file the very same motion for cogent reasons.

2.
Although we rest our affirmance of the court's judgment on
that second rationale for denying the Motion to Withdraw
Guilty Plea (specifically, that it was filed pro se when Cross was
represented by counsel), we briefly clarify the merits issue
because it is a recurring one. Cross contended that he was not
advised of one of the elements of bank fraud, namely, the
requirement that the government prove a misrepresentation or
omission of a material fact. He also contends that the govern­
ment did not present evidence of this element and that he did
not admit to conduct that would satisfy that element of the
crime. He maintains that, because of these failures, his guilty
plea was not knowing and voluntary, and the court should
have allowed him to withdraw it on that basis. The govern­
ment responds that section 1344(1) does not require that a
scheme to defraud involve false statements or representations.

6 The government also argued that Cross's scheme resembles check kiting,
and that check kiting is unlawful under section 1344(1) without additional
proof of a material misrepresentation. We decline to consider this addi(continued...)

Case: 18-3633

Document: 34

Filed: 0512212^0

Pages: 15

No. 18-3633

12

We recently addressed the materiality prong of section 1344
in United States v. LeBeau, 949 F.3d 334 (7th Cir. 2020). The
defendant there was also charged with bank fraud under
section 1344(1), although for a very different scheme than the
one at issue here. LeBeau obtained bank loans in part by
submitting false financial statements that failed to disclose his
significant debts. He also misrepresented to the bank the status
of a building project in order to persuade the bank to delay
foreclosing on the loan. At trial, the jury instructions failed to
state that the government was required to prove that the
"scheme involved a materially false or fraudulent pretense,
representation, or promise ..." as recommended in the
Seventh Circuit Pattern Jury Instructions. The panel concluded
that LeBeau waived the issue because he affirmatively ap­
proved the wording of the jury instructions.
But the panel also noted that the issue was a serious one:
In Neder v. United States, 527 U.S. 1,119 S.Ct. 1827,
144 L.Ed.2d 35 (1999), the Supreme Court held that
"materiality of falsehood is an element of the federal
... bank fraud statute[ ]." Id. at 25,119 S.Ct. 1827. It
did not limit that holding to section 1344(2). Rather,
it determined that "fraud" itself requires the element
of materiality. Id. at 23,119 S.Ct. 1827. We have since
said that Neder requires "district courts [to] include
materiality in the jury instructions for section 1344."

6 (...continued)
tional argument.

Case: 18-3633

Document: 34

Filed: 05/22/20..J

Pages: 15

No. 18-3633

13

United States v. Reynolds, 189 F.3d 521, 525 n.2 (7th
Cir. 1999).
LeBeau, 949 F.3d at 341. The commentary for the Pattern
Instruction for section 1344 provided additional guidance.
Although the Seventh Circuit has not yet addressed
the application of Neder to § 1344(1) specifically, the
Ninth Circuit, in United States v. Omer, 395 F.3d 1087
(9th Cir. 2005), held that materiality is an element of
a § 1344(1) violation under Neder. In light of the
general admonitions in Neder and Reynolds, this
instruction has been modified to reflect this require­
ment.
LeBeau, 949 F.3d at 341 (quoting Pattern Criminal Jury Instruc­
tions of the Seventh Circuit (2012 Ed.) (plus 2015-2017 and
2018 changes), http://www.ca7.uscourts.gov/
pattern-jury-instructions/7th_criminal_jury_instr.pdf, at 448).
We acknowledged that we have not always been consistent in
following this guidance but advised that [t]he better course,
consistent with Neder, is to require the materiality instruction
on all bank-fraud charges, whether brought under section
1344(1) or (2)/' until we receive greater clarity from the
Supreme Court on what is required. LeBeau, 949 F.3d at 341.
Because we decide the appeal on other grounds, we need not
decide in this case whether the failure to include the element of
material misrepresentation in a section 1344(1) case could
invalidate Cross's guilty plea as not knowing and voluntary.
The government assured the panel in LeBeau that its current
practice is to include the materiality element in all section 1344
cases, a prudent policy. Something must distinguish fraud

Case: 18-3633

14

Document: 34

Filed: 05/22/20^0

Pages: 15

No, 18-3633

from theft, and the Supreme Court made clear in Neder that a
materially false pretense fits the bill. See also United States v.
Freed, 921 F.3d 716,722 (7th Cir. 2019) (noting that a bank fraud
conviction requires the government to prove, among other
things, that the scheme involved a materially false or fraudu­
lent pretense, representation, or promise).
As for Cross, we conclude by noting that there is some
evidence in the record that at least part of his scheme involved
material misrepresentations. United States v. Arenal, 500 F.3d
634, 638 (7th Cir. 2007) (a district court may consider not only
the information proffered at the plea hearing, but also informa­
tion contained in the PSR to establish a factual basis before
entry of judgment and imposition of sentence). As the district
court noted, banks normally place holds on large checks,
refusing to make the deposited funds available until the
originating banks confirm that there are sufficient funds to
cover the deposited checks. R. 174, Sent. Tr. at 59-60. Some of
the Illinois banks where Cross engaged in his scheme failed to
follow their own rules on check holds, releasing funds to Cross
without first ensuring that the deposits were valid. The district
court noted that Cross "schmoozed" one bank employee and
"scammed" others in order to convince them to bend the rules
and release the funds. The court also remarked that Cross
targeted the youngest and least experienced bank employees
and then always had an excuse or story when the banks
contacted him after the deposited checks failed to clear. An
Illinois bank employee was fired as a result of falling for
Cross's assurances. R. 174, Sent. Tr. at 59-60. But again, we
need not reach any conclusions on the question of material
misrepresentations because we affirm the judgment on the

Case: 18-3633

No. 18-3633

Document: 34

Filed: 05/22/20^

Pages: 15

15

district court's alternate rationale for rejecting Cross s Motion
to Withdraw Guilty Plea.
AFFIRMED.

«
*<

APPENDIX C

Case: 18-3633

Document: 40

r>

Filed: 06/18/2^^0

Pages: 1

JSnttefr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
June 18,2020
Before

KENNETH F. RIPPLE, Chief Judge
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

No. 18-3633
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
ALFRED L. CROSS,
Defendant-Appellant.

Appeal from the United States District
Court for the Southern District of Illinois.
No. 3:17-cr-30047-NJR-l
Nancy J. Rosenstengel,
Chief Judge.
ORDER

On June 2, 2020, the Defendant-Appellant petitioned for panel rehearing and
rehearing en banc. No judge in active service has requested a vote to rehear the case en
banc, and all members of the original panel have voted to deny rehearing and to issue
an amended opinion. The court's opinion dated May 22,2020 is amended by the
attached opinion.
Accordingly, IT IS ORDERED that the petition for rehearing and rehearing en
banc is DENIED.

______

______
EXHIBIT

...

It

APPENDIX D

p'

Filed: 06/18/21J3

Document: 41

Case: 18-3633

Pages: 16

3n tfye

Wimitb j&tate (Knurl nf JVprate
3fur ifye jieiiEtrtlj (Hirnrii
No. 18-3633

United States of America,
Plaintiff-Appellee,
v.
Alfred L. Cross,
Defendant-Appellant.

Appeal from the United States District Court for the
Southern District of Illinois.
No. 3:17-cr-30047-NJR-l - Nancy J. Rosenstengel, Chief Judge.

ARGUED SEPTEMBER 25, 2019 — DECIDED MAY 22,2020

Amended on Denial of Rehearing and
Rehearing En Banc June 18,2020

Before Ripple, Rovner, and BRENNAN, Circuit Judges.
ROVNER, Circuit Judge. Alfred L. Cross pled guilty to five
counts ofbank fraud,inviolation of 18U.S.C. § 1344(1). Shortly
before sentencing, he moved pro se to terminate his counsel,

EXHIBIT
I

P

V

Case: 18-3633

Filed: 06/18/2oz0

Document: 41

Pages: 16

No. 18-3633

2

withdraw his guilty plea, and dismiss the case. The district
court denied all three motions. He now appeals the court's
denial of his motion to withdraw his plea, and we affirm.
I.
Between April of 2011 and March of 2015, Cross unlawfully
obtained approximately $516,000 from several southern Illinois
banks through a simple scheme. Cross opened bank accounts
at out-of-state banks in the names of companies that he
claimed to own. He also opened checking accounts at seven
banks in southern Illinois, again in the names of companies he
purportedly owned. Over the course of four years, he wrote
large checks on the out-of-state accounts and deposited them
in his accounts at the Illinois banks, knowing that there were
insufficient funds in the out-of-state accounts to cover those
checks. In each of the charged instances, he then withdrew
from the Illinois banks all, or substantially all, of the money
that he had purportedly deposited, taking the funds in the
form of cashier's checks, cash withdrawals, checks and debit
car d purchases before any of the banks could discover that the
large checks that he had deposited were not backed by
sufficient funds in the out-of-state accounts.
Based on this conduct, he was charged with five counts of
bank fraud in violation of 18 U.S.C. § 1344(1). Each count of the
indictment alleged that Cross carried out his scheme to
defraud the banks by depositing large checks written on the
out-of-state accounts into banks in Illinois, knowing those
checks were not covered by sufficient funds, and then with­
drawing the funds before the banks could discover that the

n

Case: 18-3633

Document: 41

Filed: 06/18/26^0

Pages: 16

No. 18-3633

3

deposited checks were not sufficiently funded. For example,
Count I charged:
On or about April 14, 2011, within the Southern
District of Illinois, ALFRED L. CROSS, defendant
herein, knowingly executed and attempted to
execute his scheme to defraud by making a deposit
into the "A1 L. Cross - Consolidated Billing Ac­
count" at Washington Savings Bank using a check in
the amount of $18,875, drawn on an account entitled
"Alfred L. Cross - Cross/Hart/Page - Special Ac­
count" at County Bank in Fresno California, which
check defendant knew to be NSF; In violation of
Title 18, United States Code, Section 1344(1).
R. 36, at 3.1 The other four counts varied only in the dates of the
deposits, the amounts of the checks, the titles on the accounts,
and the names of the banks involved in the scheme.
The court appointed counsel to represent Cross in March of
2017, shortly after he was charged. But Cross had difficulty
with each of the three lawyers that the court ultimately
appointed. After approximately eight months, the court
allowed the first attorney to withdraw, and appointed a second
on November 30, 2017. On March 16, 2018, while represented
by the second attorney, Cross entered his guilty plea, Two
months later, his relationship with the second lawyer deterio­
rated and the court allowed that attorney to withdraw as well,
appointing a third counsel on May 24, 2018. Less than a week

1 "NSF" is an acronym used in the banking industry. It stands for "nonsufficient funds.."

Case: 18-3633

4

Document: 41

I

Filed: 06/18/2uz0

Pages: 16

No. 18-3633

later, Cross filed a pro se motion to withdraw his guilty plea,
which the court promptly struck, advising Cross that the court
would entertain only those motions that had been filed by
counsel. Despite that warning, on December 6, 2018, a few
days before his scheduled sentencing hearing, Cross filed three
pro se motions styled, "An [sic] Motion To Withdraw Guilty
Plea," "Motion To Terminate Counsel," and "Motion To
Dismiss Case Per A, Mauro, Violation."2
Rather than striking these motions outright, the court
decided to take them up at the sentencing hearing that was
scheduled for just a few days later. The Court's order advised
counsel for both sides and the defendant himself to be pre­
pared to discuss the motions. At the hearing the court gave the
defendant, his counsel and the government opportunities to
address the motions.3 The court denied the Motion to Termi­
nate Counsel on the merits and denied the Motion to Dismiss
because Cross had filed it pro se during a time that he was
represented by counsel. The court denied the Motion to
Withdraw Guilty Plea both on the merits and because Cross
had filed it pro se while represented by counsel. The court
resolved Cross's numerous objections to the PSR, considered

2 "Mauro" is apparently a reference to United States v. Mauro, 436 U.S. 340
(1978), which is cited in the motion as the basis for dismissal.
3 In his brief, Cross complains that the district court did not allow him to
argue his motions and cut him off when he attempted to speak. That is not
an accurate characterization of the hearing. Although the district judge
limited Cross's remarks, she did allow him to address his three motions.
That he failed to make productive use of the opportunity was his own
misstep, and the court was not obligated to allow him unlimited time.

Case: 18-3633

f

Filed: 06/18/2\,z0

Document: 41

Pages: 16

5

No. 18-3633

the parties' respective arguments as to sentencing, heard
Cross's allocution, and analyzed the statutory sentencing
factors. The court then sentenced Cross to seventy-eight
months' imprisonment and five years of supervised release.
Cross appeals.
II.
On appeal, Cross asserts that the district court erred when
it denied his Motion to Withdraw Guilty Plea. We normally
review the district court's denial of a motion to withdraw a
guilty plea for abuse of discretion, and we review any related
factual findings for clear error. United States v. Haslam, 833 F.3d
840,844 (7th Cir. 2016). When a defendant moves to withdraw
a plea after the court has accepted the plea but before sentenc­
ing, the defendant may withdraw the plea if he or she "can
show a fair and just reason for requesting the withdrawal."
Fed. R. Crim. P. 11(d)(2)(B), See also Haslam, 840 F.3d at 844. "A
guilty plea operates as a waiver of important rights, and is
valid only if done voluntarily, knowingly, and intelligently,
'with sufficient awareness of the relevant circumstances and
likely consequences.'" Bradshaw v. Stumpf, 545 U.S. 175, 183
(2005) (quoting Brady v. United States, 397 U.S. 742, 748 (1970)).
A plea may be found invalid under this standard where a
defendant pleads guilty to a crime without having been
informed of the crime's elements. Bradshaw, 545 U.S. at 183;
Henderson v. Morgan, 426 U.S. 637, 645-47 (1976).
Cross asserts here that he was not properly informed of all
of the elements of bank fraud. He argues that, in order to hold
him liable for bank fraud under section 1344(1), the govern­
ment was required to prove that the scheme to defraud

Case: 18-3633

o

Filed: 06/18/2(^0

Document: 41

Pages: 16

No. 18-3633

6

involved a material falsehood or omission, citing Neder v.
United States, 527 U.S. 1 (1999). But there was no mention of a
material falsehood or omission at his plea hearing, he asserts,
and the government instead proved nothing more than the
passing of bad checks, which he argues is not a federal offense.
Because he was not informed of all of the elements of the crime
to which he pled guilty and because the government presented
no evidence of the element of a material falsehood or omission,
he contends that his plea was not knowing and voluntary. He
urges us to conclude that the district court therefore abused its
discretion in denying his motion to withdraw his plea. He asks
that we vacate the judgment and remand for further proceed­
ings.
A.
As Cross himself concedes in his brief, [t]here is a wrinkle
in this case." Brief at 21. Aware that the court denied the
Motion to Withdraw Guilty Plea both on the merits and, in the
alternative/ because it was filed pro se, Cross also advances an
argument that the district court abused its discretion when it
denied his Motion to Terminate Counsel. Specifically, he
contends that he expressed in his Motion to Terminate Counsel
an unequivocal request to proceed pto se. But the court instead
misconstrued that motion as one to substitute counsel, he
contends, and then failed to conduct the colloquy necessary to
determine whether he could proceed pro se. Summarily
denying his request to proceed pro se was an abuse of discre­
tion, he asserts. He suggests that the district court therefore
also abused its discretion when it denied his motion to with­
draw his guilty plea on the alternate ground that it was filed
pro se. He then appears to ask that this court address his appeal

Case: 18-3633

Document: 41

No. 18-3633

Filed: 06/18/2oz0

Pages: 16

7

of the denial of his motion to withdraw his guilty plea solely
on the merits, under the abuse of discretion standard.4
Although it is unclear whether Cross seeks appellate relief
from the denial of his Motion to Terminate Counsel, it is clear
that he means to use the district court's purported error on that
issue to set the standard for our review of the denial of the
Motion to Withdraw Guilty Plea, his primary issue on appeal.
Before considering the arguments relating to the Motion to
Withdraw Guilty Plea, we think it best to clear away the
underbrush of this secondary argument regarding the Motion
to Terminate Counsel.
We begin with Cross's claim that the court erred when it
misconstrued his Motion to Terminate Counsel as a motion to
substitute counsel rather than as a request to proceed pro se. "In
order to proceed pro se, a defendant must 'clearly and unequiv­
ocally' raise the right to self-representation." United States v.
Mantillas, 880 F.3d 297, 301 (7th Cir. 2018) (quoting Faretta v.
California, 422 U.S. 806,835 (1975)). We require an unequivocal
invocation of the right to proceed pro se in order "to prevent a
defendant from using an ambiguous waiver of the right to
counsel as a tool to overturn his or her conviction." Mantillas,

4 We hedge our description of Cross's argument both because it is difficult
to untangle the logic in this part of his opening brief and because he
em phasizes in his reply brief that "he does not argue that the prosecutor's
mischaracterization of his motion to terminate counsel entitles him to
relief." Reply Brief at 1. Yet the argument in the opening brief seems to
suggest that he is at least seeking relief for that alleged error by the court
below by urging this court to alter the standard of review for the denial of
his motion to withdraw his guilty plea.

Case: 18-3633

8

Document: 41

Filed: 06/18/2oz0

Pages: 16

No. 18-3633

880 F.3d at 301. See also United States v. Campbell, 659 F.3d 607,
612 (7th Cir. 2011), vacated on other grounds, sub. nom.
Campbell v. United States, 568 U.S. 802 (2012) (describing the
rationales for requiring that the demand to proceed pro se be
unequivocal).
Cross's purported request to proceed pro se does not meet
this standard. Cross relies heavily on the title of his motion,
no ting that it seeks to "terminate" counsel, and on a letter from
his counsel that he attached to the motion.5 But nowhere in the
Motion to Terminate Counsel did Cross express a desire to
represent himself should the court grant his request to termi­
nate his third appointed lawyer. Instead, Cross asserted in the
Motion that counsel was ineffective because he was insuffi­
ciently aware of the facts and law related to the charges against
Cross. Cross also complained that counsel "inherited" the
errors of the two lawyers who came before him, refused to file
a motion to withdraw the guilty plea, and failed to correct
claimed errors in the presentence report. R. 153. On the day of
the hearing, when the court inquired whether Cross wished to
"persist in the motions that [he] filed" the prior week, he
responded affirmatively and then spoke for two pages of
transcript without ever indicating that he wished to represent
himself. In fact, at no point during the hearing did Cross
5 The attached letter from Cross's third attorney explained the reasons that
counsel would not comply with Cross's demand that he file a motion to
withdraw the guilty plea. Counsel ends the letter by clearly stating that he
will not file the motion, and advising Cross that, if he Wants to file the
motion, "you will need to ask the Court to let you represent yourself." The
quoted portion of the letter is underlined by hand, presumably by Cross
himself. R. 123, at 5.

Filed: 06/18/kOo
Case: 18-3633

No, 18-3633

Pages: 16

Document: 41

9

mention that he wished to represent himself. Rather, he simply
expressed dissatisfaction with his current and former attor­
neys. A defendant seeking to "terminate" counsel could be
requesting to substitute new counsel, be seeking to proceed pro
se entirely, or be requesting to present a particular motion pro
se even though represented by counsel. See United States v.
Patterson, 576 F.3d 431,436 (7th Cir. 2009) (noting that whether
a defendant may act as co-counsel along with his own attorney
is a matter within the discretion of the district court).
Without any statement that Cross wished to represent
himself, much less an unequivocal request to do so, the court
reasonably interpreted Cross's motion as one to substitute
counsel, which it appropriately denied after rejecting Cross's
com plaints about his third lawyer. In response to Cross's prior
difficulties with his lawyers, the court had twice appointed
new counsel, and it was reasonable to construe this ambiguous
motion as asking for similar relief. In determining whether a
court abuses its discretion in denying a motion to substitute
counsel, a court considers, among other things, the timeliness
of the motion, the adequacy of the court's inquiry into the
defendant's motion, and whether the conflict was so great that
it resulted in a total lack of communication preventing an
adequate defense. United States v. Best, 426 F.3d 937, 947 (7th
Cir. 2005). Here, the court found that counsel had competently
represented Cross, and that counsel had appropriately filed
objections to the PSR that the court would take up at the
appropriate time. The court also noted that Cross appeared to
be trying to simply delay the proceedings. Importantly, the
court also found that there was no breakdown of communica­
tion between Cross and his lawyer that might justify substitu-

p

Case: 18-3633

Filed: 06/18/zo^0

Document: 41

Pages: 16

No. 18-3633

10

tion of counsel. Finding no abuse of discretion in the court's
denial of the Motion to Terminate Counsel, we turn to the
primary issue on appeal unencumbered by this side issue.
B.
The district court provided two reasons for denying the
Motion to Withdraw Guilty Plea. First, it denied the motion on
the merits, finding that Cross had knowingly and voluntarily
pled guilty. Second, the court rejected the motion because it
was filed pro se even though the defendant was represented by
counsel. As noted above, we normally review the merits of a
denial of the Motion to Withdraw the Guilty Plea for abuse of
discretion. Haslam, 833 F.3d at 844. As we discuss below,
however, review in this case is for plain error only. We review
for abuse of discretion a district court's denial of a motion filed
pro se by a defendant who is represented by counsel. Patters on,
576 F.3d at 436.
1.
A defendant does not have a right to represent himself
when he is also represented by counsel. Patterson, 576 F.3d at
436. A court thus has "wide discretion to reject pro se submis­
sions by defendants represented by counsel," and there was no
abuse of discretion in the court's decision to reject Cross's
motion on that basis here. A careful reading of the transcript
reveals that the court had concluded that Cross was filing this
motion for the purpose of delaying the proceedings, noting
that he had filed his latest round of pro se motions just two
business days before his sentencing hearing, after proceedings
that had already been in progress for twenty-one months. The
court also remarked that Cross had been represented by highly

Case: 18-3633

Filed:

Document: 41

06/18/iu^0

Pages: 16

11

No. 18-3633

competent lawyers including two lawyers whom the court
characterized as among the best panel attorneys available in
the district. That included the attorney who represented him at
the time of sentencing, who had also refused to file a motion to
withdraw the guilty plea, explaining in a letter that Cross
attached to his Motion to Terminate Counsel the reasons for
that refusal. The court was well within its discretion in denying
the motion because it had been filed pro se when Cross was
represented by highly competent counsel who had refused to
file the very same motion for cogent reasons.
2.

We turn to the merits of the court's refusal to allow Cross
to withdraw his guilty plea. Cross contended that he was not
advised of one of the elements of bank fraud, namely, the
requirement that the government prove a misrepresentation or
omission of a material fact. He also contends that the govern­
ment did not present evidence of this element and that he did
not admit to conduct that would satisfy that element of the
crime. He maintains that, because of these failures, his guilty
plea was not knowing and voluntary, and the court should
have allowed him to withdraw it on that basis. The govern­
ment responds that section 1344(1) does not require that a
scheme to defraud involve false statements or representations.

^ The government also argued that Cross s scheme resembles check kiting,
and that check kiting is unlawful under section 1344(1) without additional
proof of a material misrepresentation. We decline to consider this additional
argument.

Case: 18-3633

12

Document: 41

p

Filed: 06/18/2u20

Pages: 16

No. 18-3633

Cross urges us to review this issue under the abuse of
discretion standard. The government agrees that the abuse of
discretion standard applies, but we are not bound to accept
the government's concession when the point at issue is a
question of law." Krieger v. United States, 842 F.3d 490,499 (7th
Cir. 2016). Cf. Estrada-Martinez v. Lynch, 809 F.3d 886, 894 (7th
Cir. 2015) (whether the Board of Immigration Appeals applied
the proper standard of review is a legal question that is
reviewed de novo). The government based its concession
entirely on the contents of Cross's pro se filings, and we have
concluded that the district court did not abuse its discretion in
ignoring those filings because Cross was represented by
com petent counsel. Because Cross "never properly requested
that the district court vacate his guilty plea, we review for plain
error. " Patterson, 576 F.3d at 438. See also Puckett v. United
States, 556 U.S. 129, 133-34 (2009) (finding that Rule 52(b)'s
plain-error test applies to a forfeited claim that the government
failed to meet its obligations under a plea agreement).
In order to reverse for plain error, we must find (1) error (2)
that is plain, and (3) that affects the defendant’s substantial
rights. United States v. Olano, 507 U.S. 725, 732 (1993); United
States v. Stewart, 902 F.3d 664, 675 (7th Cir. 2018). An error is
plain if it is clear or obvious. Olano, 507 U.S. at 734; Stewart, 902
F.3d at 675. And an error affects the defendant's substantial
rights when it is prejudicial, that is, when it has affected the
outcome of the district court proceedings. Olano, 507 U.S. at
734; Stewart, 902 F.3d at 675. Finally, "Rule 52(b) leaves the
decision to correct the forfeited error within the sound discre­
tion of the court of appeals, and the court should not exercise
that discretion unless the error 'seriously affect[s] the fairness,

I '

Case: 18-3633

Document: 41

Filed: 06/18/2o^0

Pages: 16

No. 18-3633

13

integrity or public reputation of judicial proceedings.'" Olano,
507 U.S. at 732 (quoting United States v. Young, 470 U.S. 1,15
(1985)).
We recently addressed the materiality prong of section 1344
in United States v. LeBeau, 949 F.3d 334 (7th Cir. 2020). The
defendant there was also charged with bank fraud under
section 1344(1), although for a very different scheme than the
one at issue here. LeBeau obtained bank loans in part by
submitting false financial statements that failed to disclose his
significant debts. He also misrepresented to the bank the status
of a building project in order to persuade the bank to delay
foreclosing on the loan. At trial, the jury instructions failed to
state that the government was required to prove that the
"scheme involved a materially false or fraudulent pretense,
representation, or promise ...," as recommended in the
Seventh Circuit Pattern Jury Instructions. The panel concluded
that LeBeau waived the issue because he affirmatively ap­
proved the wording of the jury instructions.
But the panel also noted that the issue was a serious one:
In Neder v. United States, 527 U.S. 1,119 S.Ct. 1827,
144 L.Ed.2d 35 (1999), the Supreme Court held that
"materiality of falsehood is an element of the federal
... bank fraud statute[ ]." Id. at 25,119 S.Ct. 1827. It
did not limit that holding to section 1344(2). Rather,
it determined that "fraud" itself requires the element
of materiality. Id. at 23,119 S.Ct. 1827. We have since
said that Neder requires "district courts [to] include
materiality in the jury instructions for section 1344."

Case: 18-3633

14

Document: 41

Filed: 06/18/2uz0

Pages: 16

No. 18-3633
United States v. Reynolds, 189 F.3d 521, 525 n.2 (7th
Cir. 1999).

LeBeau, 949 F.3d at 341. The commentary for the Pattern
Instruction for section 1344 provided additional guidance:
Although the Seventh Circuit has not yet addressed
the application of Neder to § 1344(1) specifically, the
Ninth Circuit, in United States v. Omer, 395 F.3d 1087
(9th Cir. 2005), held that materiality is an element of
a § 1344(1) violation under Neder. In light of the
general admonitions in Neder and Reynolds, this
instruction has been modified to reflect this require­
ment.
LeBeau, 949 F.3d at 341 (quoting Pattern Criminal Jury Instruc­
tions of the Seventh Circuit (2012 Ed.) (plus 2015-2017 and
2018 changes), http://www.ca7.uscourts.gov/
pattern-jury-instructions/7th_criminaI_jury_instr.pdf, at 448).
We acknowledged that we have not always been consistent in
following this guidance but advised that "[t]he better course,
consistent with Neder, is to require the materiality instruction
on all bank-fraud charges, whether brought under section
1344(1) or (2)," until we receive greater clarity from the
Supreme Court on what is required. LeBeau, 949 F.3d at 341.
LeBeau makes clear that our case law on this issue has not
always been consistent, and any error in failing to include the
element of material misrepresentation therefore was not clear
or obvious. As such, it does not meet the plain error standard.
The government assured the panel in LeBeau that its current
practice is to include the materiality element in all section 1344
cases, a prudent policy. Something must distinguish fraud

Case: 18-3633

No. 18-3633

Document: 41

i
Fiied: 06/18/2u20

Pages: 16

15

from theft, and the Supreme Court made clear in Neder that a
materially false pretense fits the bill. See also United States v.
Freed, 921 F.3d 716,722 (7th Cir. 2019) (noting that a bank fraud
conviction requires the government to prove, among other
things, that the scheme involved a materially false or fraudu­
lent pretense, representation, or promise).
As for Cross, we conclude by noting that there is some
evidence in the record that at least part of his scheme involved
material misrepresentations. United States v. Arenal, 500 F.3d
634, 638 (7th Cir. 2007) (a district court may consider not only
the information proffered at the plea hearing, but also informa­
tion contained in the PSR to establish a factual basis before
entry of judgment and imposition of sentence). As the district
court noted, banks normally place holds on large checks,
refusing to make the deposited funds available until the
originating banks confirm that there are sufficient funds to
cover the deposited checks. R. 174, Sent. Tr. at 59—60. Some of
the Illinois banks where Cross engaged in his scheme failed to
follow their own rules on check holds, releasing funds to Cross
without first ensuring that the deposits were valid. The district
court noted that Cross "schmoozed" one bank employee and
"scammed" others in order to convince them to bend the rules
and release the funds. The court also remarked that Cross
targeted the youngest and least experienced bank employees
and then always had an excuse or story when the banks
contacted him after the deposited checks failed to clear. An
Illinois bank employee was fired as a result of falling for
Cross's assurances. R. 174, Sent. Tr. at 59-60. On this record,
we decline to find that any error on the material misrepresenta-

Case: 18-3633

16

Document: 41

Filed: 06/18/2u^0

Pages: 16

No. 18-3633

tion element seriously affected the fairness, integrity or public
reputation of judicial proceedings. Olano, 507 U.S. at 732.
AFFIRMED.

i

Document: 35

Case: 18-3633

Filed: 0512212^0

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

FINAL JUDGMENT
May 22, 2020

Before:

KENNETH F. RIPPLE, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge

UNITED STATES OF AMERICA,
Plaintiff - Appellee
No. 18-3633

v.
ALFRED L. CROSS,
Defendant - Appellant

Originating Case Informati on:
District Court No: 3:17-cr-30047-NJR-l
Southern District of Illinois
District Judge Nancy J. Rosenstengel

judgment of the District Court is AFFIRMED in accordance with the decision of this court
The
entered on this date.

form name: c7_FinalJudgment(form ID: 132)

APPENDIX E

Case: 18-3633

r

Filed: 06/26/2020

Document: 42

Pages: 2

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
June 26, 2020

To:

Margaret M. Robertie
UNITED STATES DISTRICT COURT
Southern District of Illinois
East St. Louis, IL 62201-0000

UNITED STATES OF AMERICA,
Plaintiff - Appellee
No. 18-3633

v.
ALFRED L. CROSS,
Defendant - Appellant

Originating Case Information:
District Court No: 3:17-cr-30047-NJR-l
Southern District of Illinois
District Judge Nancy J. Rosenstengel
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

No record to be returned

This notice sent to:
[]

United States Marshal

[xj

United States Probation Officer

r

f
S'*.

Case: 18-3633

Document: 42

Filed: 06/26/2020

Pages: 2

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

form name: c7_Mandate(form ID: 135)

Received by:

Additional material
from this filing is
available in the
Clerk's Office.

